2311 Douglas Street
Omaha, Nebraska 68102-1214

C@QCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-83

JACOB JONES AND BRYAN WRIGHT,
Petitioners,
vs.
WAYNE DUKE KALBAUGH,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY TO BRIEF IN
OPPOSITION in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2988 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Kevse. 9. Llosa Ondine. Ohibe

Affiant 40843

     
  

GENERAL NOTARY-State of Nebraska

RENEE J. GOSS
sheen My Comm. Exp. September 5, 2023,

 

Notary Public
